           U.S. Department of
                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Revised Audit                             Date:    February 21, 2014
           Notification – FHWA’s Oversight of
           Recovery Act Project Closeouts
           Federal Highway Administration
           Project Number 13U3002M000

  From:    Joseph W. Comé                                      Reply to
                                                               Attn. of:   JA-40
           Assistant Inspector General for
             Highway and Transit Audits

    To:    Federal Highway Administrator

           On July 2, 2103, the Office of Inspector General announced an audit of the Federal
           Highway Administration’s (FHWA) oversight of American Recovery and
           Reinvestment Act (ARRA) highway project closeouts. The objectives were to
           determine whether (1) FHWA performs adequate oversight to ensure timely closeouts
           of completed ARRA highway projects and (2) lessons learned from closing out
           ARRA highway projects can be used to improve closeouts of non-ARRA Federal-aid
           highway projects.

           FHWA Headquarters recently completed an internal review of its Federal-aid
           highway project close-out process, and FHWA officials stated that they are
           considering what specific improvement actions to take. Accordingly, we are
           discontinuing work on the second audit objective but will continue with our first
           objective: to determine whether FHWA performs adequate oversight to ensure timely
           closeouts of completed ARRA highway projects.

           We will continue our audit at FHWA Headquarters, selected FHWA Division Offices,
           and State Departments of Transportation. If I can answer any questions or be of
           further assistance, please contact me at (202) 366-5630 or David Pouliott, Program
           Director, at (202) 366-1844.
                                                   #

           cc:      FHWA Audit Liaison, HAIM-13
                    DOT Audit Liaison, M-1
